<html>
<title> - HEARING ON THE NATIONAL VOTER REGISTRATION ACT, SECTION 7: THE CHALLENGES THAT PUBLIC ASSISTANCE AGENCIES FACE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
    HEARING ON THE NATIONAL VOTER REGISTRATION ACT, SECTION 7: THE 
            CHALLENGES THAT PUBLIC ASSISTANCE AGENCIES FACE

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                 HELD IN WASHINGTON, DC, APRIL 1, 2008

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




                     U.S. GOVERNMENT PRINTING OFFICE

42-796 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                William Plaster, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

                  ZOE LOFGREN, California, Chairwoman
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California           VERNON J. EHLERS, Michigan
ARTUR DAVIS, Alabama


    HEARING ON THE NATIONAL VOTER REGISTRATION ACT, SECTION 7: THE 
            CHALLENGES THAT PUBLIC ASSISTANCE AGENCIES FACE

                              ----------                              


                         TUESDAY, APRIL 1, 2008

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:07 p.m., in 
Room 311, Cannon House Office Building, Hon. Zoe Lofgren 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Lofgren, Davis of California, 
Davis of Alabama, Ehlers and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Thomas Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Daniel Favarulo, Legislative 
Assistant, Elections; Gregory Abbott, Staff Assistant; Gineen 
Beach, Minority Election Counsel; Ashley Stow, Minority 
Election Counsel; and Bryan T. Dorsey, Minority Professional 
Staff.
    Ms. Lofgren. Good afternoon and welcome to the Elections 
Subcommittee hearing on the National Voter Registration Act, 
Section 7: The Challenges Public Assistance Agencies Face.
    In 1993, Congress passed the National Voter Registration 
Act, otherwise known as the NVRA, to ``increase the number of 
eligible citizens who register to vote in elections for Federal 
office.'' Section 7 of the NVRA requires States to provide 
voter registration services at public assistance agencies or 
State funding programs that provide assistance to people with 
disabilities.
    The purpose of section 7 is to supplement the motor-voter 
provisions by reaching out to individuals who are not as likely 
to benefit from State motor-voter provisions, oftentimes 
minorities and low-income individuals.
    The U.S. Department of Justice has, unfortunately, largely 
ignored enforcement of section 7 violations. Since 1995, many 
States have failed to fully implement voter registration in 
public assistance agencies. This failure has resulted in voter 
registration generated from public agencies to decline 79 
percent since 1995 according to a recent report by Project Vote 
and Demos. At its most basic, noncompliance with section 7 
means the disenfranchisement of millions of low-income citizens 
and a widening of the gap between the registration rates of 
high- and low-income individuals.
    In September 2005, now-Chairman John Conyers sent a letter 
to then-Attorney General Gonzales, asking for an investigation 
into section 7 compliance. It wasn't until August of 2007 that 
the Voting Section sent letters of inquiry to 18 States 
regarding their section 7 compliance. In the past 6 years, the 
Department of Justice has filed suit against four States, 
forcing them to conduct massive purges of voter registration 
lists while initiating only one section 7 enforcement action.
    Disregarding evidence of State noncompliance with section 7 
and focusing instead on section 8, purging voter rolls seems 
consistent with the Department of Justice's apparently partisan 
bent. Although we don't have the Department of Justice here 
today, it is my intent to send an inquiry on their progress 
with this requirement.
    There are some States that have voluntarily adopted reforms 
to improve compliance with NVRA section 7, and I am pleased to 
see they are represented on the panel of witnesses. North 
Carolina's public assistance agencies have experienced a five-
fold increase in the average number of voters registering in 
agencies each month from 484 to 2,529. Success stories like 
this are proof that section 7 can be properly implemented and 
successful.
    Witnesses before the subcommittee today will provide us 
information on compliance with section 7 successes and 
failures. Voting is a fundamental right and the purpose of this 
hearing is to ensure access to that right for all eligible 
voters.
    I would now invite our ranking member, Mr. McCarthy, to 
make any opening statements he may wish.
    Mr. McCarthy. Madam Chair, no I just appreciate having the 
hearing. I look forward to the discussion.
    Ms. Lofgren. Thank you very much. I would like then to 
introduce our first panel.
    We have two witnesses. Johnnie McLean is the Chief Deputy 
Director for the North Carolina Board of Elections. She has 
worked for the State board of elections for over 12 years, 
where she has served in many capacities, including her work on 
two election-centered task forces for election reform, as well 
as North Carolina Representative on the EAC Standards Board.
    We also have Catherine Truss with us. Ms. Truss is a 
Departmental Specialist for the Michigan Department of Human 
Services where she also serves as a coordinator for the Civic 
Engagement Program, a voter registration effort. Ms. Truss has 
worked for the Department of Human Services for 9 years, and in 
2006 was awarded Michigan Department of Human Services 2006 
Star Award.
    Prior to her work as a Departmental Specialist, Ms. Truss 
was a Children's Foster Care Specialist, Performance Management 
Specialist and a Children's Protective Services Specialist. She 
received her Bachelor's in psychology from the University of 
Montana and her Master's in social work from the University of 
Michigan.
    We are delighted to have you both here. Your entire written 
statements will be made part of the record of this hearing. We 
ask that you give your oral testimony in about 5 minutes. There 
is a little box there, and when the orange light goes on, it 
means you have just got 1 minute left; and when the red light 
goes on, it means that you have actually been speaking for 5 
minutes. It always strikes you as it has only been a minute. We 
don't have a heavy gavel, but we would ask that if the red 
light goes on, you try to summarize and conclude.

  STATEMENTS OF JOHNNIE McLEAN, CHIEF DEPUTY DIRECTOR, NORTH 
    CAROLINA STATE BOARD OF ELECTIONS, AND CATHERINE TRUSS, 
 DEPARTMENTAL SPECIALIST, MICHIGAN DEPARTMENT OF HUMAN SERVICES

    Ms. Lofgren. So we will begin with you, Ms. McLean. If you 
would please give us your testimony.

                  STATEMENT OF JOHNNIE McLEAN

    Ms. McLean. Thank you so much.
    Ms. Lofgren. The microphone also needs to be turned on--
there we go--and maybe even moved a little bit closer.
    Ms. McLean. How is this?
    Ms. Lofgren. Much better. Thank you.
    Ms. McLean. Thank you so much, Madam Chairwoman, and 
distinguished members of the committee. We appreciate the 
opportunity to be here this afternoon.
    The NVRA was implemented in North Carolina in 1995 and for 
several years was considered to be a model for agency-based 
registration. It is unfortunate that, as time passed, the 
emphasis was not placed on the agency-based registrations as it 
should have been. Some of this was due to personnel changes in 
the agencies, as well as personnel changes at the State board 
of elections.
    The State board of elections has always taken very 
seriously the Federal legislation and has worked hard to 
implement that. The NVRA implementation project that began a 
nationwide effort in 2004 to enhance and improve voter 
registration procedures in the public assistance agencies 
conducted some surveys, and as part of that, the results of 
those surveys, in early 2006 identified North Carolina as one 
of many States that was not doing the kind of job that it 
should be doing in the public assistance area for voter 
registration.
    Initially, we believed that these were isolated incidents 
of noncompliance. However, when we were presented with the 
real, hard evidence, we learned that there had been something 
like a 74 percent drop-off in the number of registrations that 
were being accepted at these agencies. We were shocked to learn 
that in some of these agencies voter registration was not even 
being offered to a single client.
    Gary Bartlett, the Executive Director of the State Board of 
Elections, met with some of the advocates and wanted to work 
with them in order to make the system work the way it should. A 
14-point compliance plan was drafted and adopted, and the 
elements of that plan included communication and coordination 
with public assistance agencies, advising the agencies of their 
specific duties in this area, providing updated materials and 
training for agency personnel; and most importantly, I believe, 
was tracking the weekly agency compliance of the voter 
registration applications received.
    The updated implementation plan was put into place within a 
couple of months, and some of the steps involved were that we 
directly communicated with each of the agency heads that had 
NVRA responsibilities. It also was--that effort was assisted by 
our governor's office that sent written communication to these 
agency heads, reminding them of their NVRA duty.
    There were monthly telephone conference calls with the 
advocates. This helped us to stay focused on the tasks that we 
were attempting, and to keep the joint efforts headed in the 
right direction. We prepared, modified, provided and updated 
agency voter registration manuals, conducted group training at 
the NVRA agencies, made PowerPoints available to the advocates 
and to the agencies.
    We began monitoring weekly transmissions of the reports and 
comparing them with those reports of applications for Medicare, 
which would alert us to any possible problems. We conducted 
unannounced, random, in-person checks on some of these NVRA 
agencies.
    We are appreciative of the advocates' willingness to work 
with us rather than to file litigation against us. We certainly 
were surprised when they presented evidence to us, but we 
worked with them in order to make this work for those citizens 
that the NVRA was designed to address.
    Ms. Lofgren. Thank you very much.
    [The statement of Ms. McLean follows:]
    [GRAPHIC] [TIFF OMITTED] 42796.001
    
    [GRAPHIC] [TIFF OMITTED] 42796.002
    
    [GRAPHIC] [TIFF OMITTED] 42796.003
    
    [GRAPHIC] [TIFF OMITTED] 42796.004
    
    [GRAPHIC] [TIFF OMITTED] 42796.005
    
    [GRAPHIC] [TIFF OMITTED] 42796.006
    
    [GRAPHIC] [TIFF OMITTED] 42796.007
    
    [GRAPHIC] [TIFF OMITTED] 42796.008
    
    [GRAPHIC] [TIFF OMITTED] 42796.009
    
    [GRAPHIC] [TIFF OMITTED] 42796.010
    
    [GRAPHIC] [TIFF OMITTED] 42796.011
    
    [GRAPHIC] [TIFF OMITTED] 42796.012
    
    [GRAPHIC] [TIFF OMITTED] 42796.013
    
    [GRAPHIC] [TIFF OMITTED] 42796.014
    
    [GRAPHIC] [TIFF OMITTED] 42796.015
    
    [GRAPHIC] [TIFF OMITTED] 42796.016
    
    [GRAPHIC] [TIFF OMITTED] 42796.017
    
    [GRAPHIC] [TIFF OMITTED] 42796.018
    
    [GRAPHIC] [TIFF OMITTED] 42796.019
    
    [GRAPHIC] [TIFF OMITTED] 42796.020
    
    [GRAPHIC] [TIFF OMITTED] 42796.021
    
    [GRAPHIC] [TIFF OMITTED] 42796.022
    
    [GRAPHIC] [TIFF OMITTED] 42796.023
    
    [GRAPHIC] [TIFF OMITTED] 42796.024
    
    [GRAPHIC] [TIFF OMITTED] 42796.025
    
    [GRAPHIC] [TIFF OMITTED] 42796.026
    
    [GRAPHIC] [TIFF OMITTED] 42796.027
    
    [GRAPHIC] [TIFF OMITTED] 42796.028
    
    [GRAPHIC] [TIFF OMITTED] 42796.029
    
    [GRAPHIC] [TIFF OMITTED] 42796.030
    
    [GRAPHIC] [TIFF OMITTED] 42796.031
    
    [GRAPHIC] [TIFF OMITTED] 42796.032
    
    [GRAPHIC] [TIFF OMITTED] 42796.033
    
    [GRAPHIC] [TIFF OMITTED] 42796.034
    
    [GRAPHIC] [TIFF OMITTED] 42796.035
    
    [GRAPHIC] [TIFF OMITTED] 42796.036
    
    [GRAPHIC] [TIFF OMITTED] 42796.037
    
    [GRAPHIC] [TIFF OMITTED] 42796.038
    
    [GRAPHIC] [TIFF OMITTED] 42796.039
    
    [GRAPHIC] [TIFF OMITTED] 42796.040
    
    [GRAPHIC] [TIFF OMITTED] 42796.041
    
    [GRAPHIC] [TIFF OMITTED] 42796.042
    
    [GRAPHIC] [TIFF OMITTED] 42796.043
    
    [GRAPHIC] [TIFF OMITTED] 42796.044
    
    [GRAPHIC] [TIFF OMITTED] 42796.045
    
    [GRAPHIC] [TIFF OMITTED] 42796.046
    
    [GRAPHIC] [TIFF OMITTED] 42796.047
    
    [GRAPHIC] [TIFF OMITTED] 42796.048
    
    [GRAPHIC] [TIFF OMITTED] 42796.049
    
    [GRAPHIC] [TIFF OMITTED] 42796.050
    
    [GRAPHIC] [TIFF OMITTED] 42796.051
    
    [GRAPHIC] [TIFF OMITTED] 42796.052
    
    [GRAPHIC] [TIFF OMITTED] 42796.053
    
    [GRAPHIC] [TIFF OMITTED] 42796.054
    
    [GRAPHIC] [TIFF OMITTED] 42796.055
    
    [GRAPHIC] [TIFF OMITTED] 42796.056
    
    [GRAPHIC] [TIFF OMITTED] 42796.057
    
    [GRAPHIC] [TIFF OMITTED] 42796.058
    
    [GRAPHIC] [TIFF OMITTED] 42796.059
    
    [GRAPHIC] [TIFF OMITTED] 42796.060
    
    [GRAPHIC] [TIFF OMITTED] 42796.061
    
    [GRAPHIC] [TIFF OMITTED] 42796.062
    
    [GRAPHIC] [TIFF OMITTED] 42796.063
    
    [GRAPHIC] [TIFF OMITTED] 42796.064
    
    [GRAPHIC] [TIFF OMITTED] 42796.065
    
    [GRAPHIC] [TIFF OMITTED] 42796.066
    
    [GRAPHIC] [TIFF OMITTED] 42796.067
    
    [GRAPHIC] [TIFF OMITTED] 42796.068
    
    [GRAPHIC] [TIFF OMITTED] 42796.069
    
    [GRAPHIC] [TIFF OMITTED] 42796.070
    
    [GRAPHIC] [TIFF OMITTED] 42796.071
    
    [GRAPHIC] [TIFF OMITTED] 42796.072
    
    [GRAPHIC] [TIFF OMITTED] 42796.073
    
    [GRAPHIC] [TIFF OMITTED] 42796.074
    
    [GRAPHIC] [TIFF OMITTED] 42796.075
    
    [GRAPHIC] [TIFF OMITTED] 42796.076
    
    [GRAPHIC] [TIFF OMITTED] 42796.077
    
    [GRAPHIC] [TIFF OMITTED] 42796.078
    
    [GRAPHIC] [TIFF OMITTED] 42796.079
    
    [GRAPHIC] [TIFF OMITTED] 42796.080
    
    [GRAPHIC] [TIFF OMITTED] 42796.081
    
    [GRAPHIC] [TIFF OMITTED] 42796.082
    
    [GRAPHIC] [TIFF OMITTED] 42796.083
    
    [GRAPHIC] [TIFF OMITTED] 42796.084
    
    [GRAPHIC] [TIFF OMITTED] 42796.085
    
    [GRAPHIC] [TIFF OMITTED] 42796.086
    
    [GRAPHIC] [TIFF OMITTED] 42796.087
    
    [GRAPHIC] [TIFF OMITTED] 42796.088
    
    [GRAPHIC] [TIFF OMITTED] 42796.089
    
    [GRAPHIC] [TIFF OMITTED] 42796.090
    
    Ms. Lofgren. Ms. Truss, we would love to hear from you at 
this point.

                  STATEMENT OF CATHERINE TRUSS

    Ms. Truss. Chairman----
    Ms. Lofgren. You need to turn on the microphone. And to 
pull it a little bit closer to you would be great.
    Ms. Truss. Chairwoman Lofgren, Congressman McCarthy, 
members of the subcommittee, thank you for inviting me today to 
testify on behalf of the Michigan Department of Human Services 
and our Director, Ismael Ahmed, on our experience implementing 
the National Voter Registration Act. I would like to spend just 
a few minutes highlighting some of the pieces that I provided 
in the written testimony to all of you.
    I am going to start by telling you a little bit about what 
our department does. Each human services department in each 
State works a little differently, so I want to tell you a 
little bit about us. And then I am going to detail some of our 
work on implementing the National Voter Registration Act.
    The mission of the Michigan Department of Human Services is 
to assist children, families and vulnerable adults to be safe, 
stable and self-supporting. To that end, we implement the 
Federal food stamps program, Michigan's TANF grant; and our 
caseworkers perform eligibility for Medicaid. We are also 
Michigan's public child welfare agency.
    In addition, we administer many other human services 
programs. We provide a safety net for families who are in 
crisis. Many of those who come to our department for 
assistance, though, are ashamed of needing help. It is because 
of the disenfranchising effects of poverty that Director Ahmed 
has set forth several initiatives meant to empower and engage 
low-income individuals and families.
    We take the National Voter Registration Act very seriously 
not only because it is a Federal mandate, but because it 
provides a key for families to act on their own behalf and 
become part of the public debate on issues that impact their 
lives.
    The Michigan Department of Human Services Civic Engagement 
Initiative approaches voter registration activity with a larger 
framework of removing barriers to self-sufficiency and 
empowerment for our customers. Currently, Michigan has over 100 
financial assistance offices and over 3,000 case specialists 
devoted to serving financial assistance clients.
    The department has complied with the NVRA, section 7, by 
including access to voter registration at strategic points in 
the public assistance process. Voter registration forms include 
as part--I am sorry--offering voter registration forms are 
included as part of our public assistance application process. 
In addition, our workers are responsible for offering voter 
registration to our clients, concurrent with application for 
benefits, redetermination of benefit eligibility and whenever a 
change of address is completed.
    Voter registration activities have been part of our 
official departmental policy since October of 2004. When 
Director Ahmed was appointed to his position in August of 2007, 
he brought with him a long history of human services work and 
working to design strategies to empower low-income individuals. 
As part of a broader set of initiatives to move clients toward 
greater self-sufficiency, he made voter registration a priority 
for our department.
    In September of 2007, we began to take a strategic and 
focused approach to voter registration activities at DHS. There 
are several goals to our initiative. The primary goal is to 
further the intent of Congress by providing voter registration 
to low-income individuals. In addition, we hope to reduce real 
and perceived barriers to voter registration for our clients, 
and we hope to empower them by assisting them in making 
decisions for themselves.
    We have also developed an accountability mechanism through 
a Web-based reporting tool. Previously, local offices tracked 
their voter registration activities and did not report to a 
central repository. We have shored up that process and we are 
now asking them to report to central office so that we can 
track their progress.
    In addition, public education and community partnering are 
two important goals of this initiative. We are a statewide 
department that works with local county offices, and because of 
this, when we created the civic engagement team to work on this 
initiative, we wanted to invite representatives from our local 
and central office to be a part of it. The team was also 
fortunate to benefit from the guidance of Lisa Danetz from 
Demos.
    The charge of our team was to create a plan to enhance DHS 
voter registration activities. The plan has several components: 
policy revision, results-oriented project management, training 
and technical assistance, public education and community 
partnering.
    The civic engagement team analyzed our existing policy at 
the time that we kicked off this initiative. We identified 
revisions that would help local office staff better execute 
their responsibilities, and we revised the policy to include 
aspects of the new initiative to enhance department voter 
registration activities.
    Next, we decided we needed to focus on results-oriented 
project management, and that has to do with the Web-based 
reporting tool that I just discussed with you. The data 
collected will be used to identify high-performing offices, but 
also help us work with those offices that may be struggling. We 
can also partner local offices together to share best 
practices.
    Training and technical assistance is another important 
component of our initiative. We developed training for our 
local office coordinators, and we have developed training for 
them to provide to all local office staff.
    Public education is another important aspect of our 
initiative. With help from Demos, we have public education 
materials that we have provided to our local offices including 
posters that can be displayed in lobbies and shared with 
community partners. We have also provided DVDs that can run in 
local office lobbies.
    We are also securing several Michigan celebrities to lend 
their voices and personas to the effort in the form of radio 
and television spots. Our Office of Communications has 
developed press releases related to the initiative, and we are 
providing all of our local office staff with tips for engaging 
local media.
    We are also hoping to engage community partners in our 
effort; that is something that we are really excited about. The 
League of Women Voters is extremely interested in working with 
our local office staff.
    Ms. Lofgren. Thank you very, very much.
    [The statement of Ms. Truss follows:]
    [GRAPHIC] [TIFF OMITTED] 42796.091
    
    [GRAPHIC] [TIFF OMITTED] 42796.092
    
    [GRAPHIC] [TIFF OMITTED] 42796.093
    
    [GRAPHIC] [TIFF OMITTED] 42796.094
    
    [GRAPHIC] [TIFF OMITTED] 42796.095
    
    Ms. Lofgren. Now is the time on our agenda when members can 
ask a few questions. I would like to start out first by saying 
thanks to you for being here today, but also sharing your 
experience. I think what you are showing us is that some 
attention can yield results, and we don't have to accept the 
nearly 80 percent decline in the performance of section 7.
    I was thinking as you were talking--and this is the last 
year I will be able to say this--but I have spent more time in 
local government than I have in Congress. I have served on the 
Board of Supervisors, and I can recall at one time we actually 
sent voter registration cards out with the AFDC checks. We 
mailed the checks every week because so many of the AFDC 
recipients--ours has got a different program name now 
obviously--they didn't have cars. If they had a car, they 
wouldn't be eligible for--I mean, they would have too much by 
way of assets.
    You know, it is very difficult. If you can just imagine 
being, in most cases, a single mother with several small 
children, no vehicle, in a community where public transit is 
very tough; and to make everything happen and--you know, 
registering to vote wasn't always at the top of the to-do list.
    And yet to hear from you that in Michigan--and I think, by 
extrapolation, North Carolina--this is not seen as a burden, 
but really as part of helping families get on their feet, to 
have self-confidence and self-sufficiency. It is not a separate 
thing; it is part of what you are trying to do to help people 
build their own lives.
    So I am just wondering, you know, for States that are 
noncompliant, what advice would you have for them? I mean, has 
this been resisted by line staff in either one of your States? 
Or has this been embraced? Are there some tricks of the trade 
you would give to others in States that are not performing?
    Ms. Truss. I think that the identification of the local 
office coordinator is key. Having someone who is passionate 
about the initiative in each of the local offices, I think, 
helps to keep it on the radar for the local office staff.
    So that would be one piece of advice. And I know that Demos 
has identified that as a best practice as well.
    Ms. McLean. I think in some instances there are staff that 
find this burdensome initially, but those generally are the 
staff that had been there for a very long time, perhaps before 
this was implemented. And as new people are brought in and 
trained and reminded of their duties, then it just becomes a 
part of their jobs.
    Ms. Lofgren. Let me ask: The EAC was established to help 
promote things like this. Are there things that in your 
judgment the EAC could and should be doing to promote section 7 
compliance? Either one of you.
    Ms. McLean. I think that the EAC is doing a very good job 
of what they see as their responsibilities, and I think they 
are more focused--and I hope none of them are in the room; they 
may not appreciate this. I think that they are focused right 
now on voting systems and that type of legislation.
    Ms. Lofgren. But if our idea is to make sure that every 
vote counts and that America makes a decision that is important 
for us, then not having people registered is important as well, 
not just the voting machine issue.
    Ms. Truss. I know that the EAC is looking at on-line live 
portals to help individuals determine whether they are already 
registered or not. I think that could be a really beneficial 
tool.
    Ms. Lofgren. Not everyone on public assistance is on line 
all of the time.
    Ms. Truss. Right. So I think workers, if they had access to 
that on-line portal while they are assisting clients at the 
registration process, I think that would be beneficial.
    Ms. Lofgren. That would be--it would be for the workers.
    I would just note that in your written testimony, Ms. 
Truss, on page 4--and I think this is very important and I 
assume would be the case in every State--that the employees are 
totally precluded from trying to influence how people register, 
or wearing political buttons or giving advice of any kind, of 
that nature.
    Is that the case in North Carolina as well?
    Ms. McLean. Yes, it is. Some of the workers would even go 
out to visit--make home visits and they were advised not to 
have any stickers, bumper stickers, on their car.
    Ms. Lofgren. I think that is an important component.
    With that, I would turn to the ranking member for his 
questions.
    Mr. McCarthy. Thank you, Madam Chair. I appreciate the 
hearing.
    I think it is rather unique we have--Ms. McLean, you are 
with the elections department and you are with human services, 
correct--so we get a little of both analyses looking at it from 
the department point of view and working with the elections.
    Ms. McLean, you used the number, 74 percent drop-off, when 
you did the study. Was that a study you did internally or did 
someone else do that study for you? What was that?
    Ms. McLean. No, sir. That study was done by the NVRA 
implementation project. The collaboration between Project Vote, 
Demos and ACORN. And it came from a survey that had been 
devised and that they had actually conducted.
    Mr. McCarthy. So they conducted the survey?
    Ms. McLean. Yes, sir.
    Mr. McCarthy. Okay. Have we done any survey since this has 
been implemented?
    Ms. McLean. They have done the same survey or have reported 
that, and that is where the number came from, that our voter 
registrations have increased almost six-fold in the amount of 
time since this reimplementation plan went into effect.
    Mr. McCarthy. Based upon their survey and their 
questionnaire?
    Ms. McLean. And based upon the numbers that are being 
reported weekly by the agencies to the State board.
    Mr. McCarthy. And this 74 percent, that was a downturn 
during, you said, which years?
    Ms. McLean. 2004-2005.
    Mr. McCarthy. And in trend, did you see an increase during 
that time or a downward for people on public assistance in 
North Carolina?
    Ms. McLean. There was an increase. And that is why----
    Mr. McCarthy. 2003 and 2004?
    Ms. McLean. Right. And that is why I think the numbers were 
so shocking: That in a year when assistance applications were 
increasing, the voter registration numbers were still 
declining.
    Mr. McCarthy. How does it work there when someone comes in? 
Because when I went to the DMV, they asked me; is that--you 
just ask whoever comes forward? Is that how it works in your 
State?
    Ms. McLean. In the agencies?
    Mr. McCarthy. Yes.
    Ms. McLean. Yes, sir. As when they are offering--when they 
first come in, they are provided whatever the application is 
for that particular agency. And also then they offer them the 
opportunity to register to vote.
    Mr. McCarthy. Is there anything else offered besides voter 
registration at the end? I mean, are there other things you 
have to offer them? Or no?
    Ms. McLean. None that I am aware of, no, sir.
    Mr. McCarthy. Have you ever registered one person, I guess, 
more than once? I guess you have probably had that happen.
    Ms. McLean. They are what we refer to as ``duplicate 
registrations''; and, yes, we do get some of those. But we take 
the approach that we would rather have the duplicate 
registrations than none.
    Mr. McCarthy. Can a noncitizen get benefits in North 
Carolina?
    Ms. McLean. I believe that they can, but they cannot 
register to vote.
    Mr. McCarthy. So you ask them that question?
    Ms. McLean. That is one of the questions, yes, for 
registration purposes. It is not one of the questions, I don't 
believe, for any of the assistance.
    Mr. McCarthy. Okay. So someone comes in, they get 
assistance. I did the paperwork, I gave it to them; and the 
person asks.
    What do you say, are you registered to vote, or would you 
like to register to vote?
    Ms. McLean. Would you like to register to vote?
    Mr. McCarthy. Then they ask, are you a U.S. citizen?
    Ms. McLean. Yes, sir.
    Mr. McCarthy. That is on----
    Ms. McLean. That is on our registration application, yes, 
sir.
    Mr. McCarthy. Does the person handling it ask them that 
question or is it just on the application itself?
    Ms. McLean. They would ask that question if the person 
needed assistance in reading the application.
    Mr. McCarthy. So they only ask if they need assistance in 
reading the application?
    Ms. McLean. I can't say for certain, but I believe that is 
the way they are supposed to do it, yes, sir.
    Mr. McCarthy. Okay.
    Ms. Truss, if I am not a citizen, can I get benefits in 
Michigan?
    Ms. Truss. Yes.
    Mr. McCarthy. Do you do the same thing that they do?
    Ms. Truss. Very similar, yes.
    Mr. McCarthy. Walk me through it just real quick.
    I am sorry, do you do the same thing where someone fills 
out for whatever assistance they are getting; and then the 
person--do you have guidelines on what--because you are telling 
them not to do one party or the other, what are the guidelines 
you tell them to do? The employee?
    Ms. Truss. As part of the financial assistance application 
process, voter registration is offered. And they are to 
determine whether the person applying is a citizen or not; and 
if they are not a citizen, they are not to offer that person--
--
    Mr. McCarthy. And they just do that by asking?
    Ms. Truss. Asking.
    And we have also built into our training that if they 
knowingly offer someone the opportunity to register to vote 
that they know is not a citizen, they understand that there are 
penalties associated with that.
    Mr. McCarthy. One 10-second followup: Did you do any 
studies such as North Carolina did about the 74 percent, or did 
ACORN do a study for you too?
    Ms. Truss. Actually, I believe they studied all of the 
States and then reported out in one report on how all the 
States were doing.
    Mr. McCarthy. Has the State done any study themselves for 
their own checks and balances?
    Ms. Truss. In terms of our voter registration activities 
within the department?
    Mr. McCarthy. Yeah.
    Ms. Truss. I wouldn't say we have done something so 
extensive. What we have done is now shored up our activities, 
and we are just gathering baseline data in terms of voter 
registrations in our local offices reported to a central 
repository. So we are just sort of at the beginning of 
gathering that data within our State.
    Mr. McCarthy. Well, I thank both of you for your testimony. 
Thank you.
    Thank you, Madam Chairwoman.
    Ms. Lofgren. Before calling on Ms. Davis, I would, without 
objection, put into the record the report I received from the 
California Secretary of State that outlines the number of 
registrations per county under NVRA. I would note that my 
county, all of them could do better. Santa Clara County last 
year registered a little under 3,000; Kern County registered 
14.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42796.096
    
    [GRAPHIC] [TIFF OMITTED] 42796.097
    
    Ms. Lofgren. So Mr. Davis is recognized.
    Mr. Davis of Alabama. Thank you, Madam Chairwoman.
    Let me pick up Chairwoman Lofgren's comments at the outset. 
She was talking about why this is such a core issue for some of 
us on the committee, and I will add just one thing to what she 
said.
    There are some parts of the electorate on both the left and 
right who have multiple ways of engaging the political process. 
Some of them on both the left and right can raise money for 
candidates. Some of them on the left and right can blog or have 
ready access to the Internet. But for people who are 
economically marginalized, frankly, voting and voting in good 
numbers is about the only possible way they have to influence 
what goes on here and in your various State capitals.
    I assume both of you ladies would agree with that general 
proposition?
    Ms. McLean. Yes, sir.
    Ms. Truss. Yes, sir.
    Mr. Davis of Alabama. And the second broad observation that 
I want to make is this; I want to use my State and the two 
States that neighbor us, Georgia on our east and Mississippi on 
our west. I am from Alabama. As of 2004, the last few years for 
which I have seen the data, in those three States, 
approximately 58-59 percent of African-Americans who were 
eligible to vote, meaning over the age of 18 with no legal 
impediments or disqualifications, less than 60 percent of them 
were actually registered. Whereas for Caucasians, the numbers 
of those eligible voters registered tend to be in the mid-70s.
    Are the numbers similar to that, Ms. McLean, in North 
Carolina, or do you happen to know?
    Ms. McLean. I really couldn't tell you the exact 
percentages, but I do believe they would be similar to what you 
were saying.
    Mr. Davis of Alabama. And, Ms. Truss, Michigan is obviously 
not a southern State, but you have a large African-American 
inner city in Detroit. Do you happen to know the comparable 
numbers of blacks eligible to vote versus those registered in 
Michigan?
    Ms. Truss. I don't have that available, but I would be 
happy to get that information and report back to the 
subcommittee.
    Mr. Davis of Alabama. The reason I make the observation is 
because obviously we have removed virtually every major legal 
impediment to someone voting based on race. Every now and then 
a State will try to backtrack in that area, but we have done a 
pretty good job of rooting them out.
    But it seems that economic marginalization still remains 
and that that is, frankly, as powerful an impediment today as 
hard de facto laws and rules were in the 1960s. I believe that.
    So I just want to underscore the chairwoman's comments 
about why this is important from a public policy standpoint. 
And the questions I want to ask have to deal with something 
else that Chairwoman Lofgren and I spend a lot of time focused 
on. Both she and I serve on the House Judiciary Committee; so 
one of our roles is to oversee the Department of Justice, and 
one of our constant sources of concern is what piques their 
interest and what doesn't.
    So to put this in the context of today's hearing, based on 
some material the committee has gathered, from 2001 to 2007 DOJ 
initiated one section 7 enforcement action, in the entire 
country, and they promptly settled that one.
    During that same time period, DOJ brought suit against four 
States relying on different sections, including section 8, 
which deals with purging the voter rolls. Can you comment, Ms. 
McLean, on what that says to you, the fact that DOJ initiated 
one section 7 enforcement action in 6 years? What do you take 
from that?
    Ms. McLean. I would like to think that that means that most 
everybody appeared to be trying to do their jobs.
    Mr. Davis of Alabama. You would like to take that from it.
    Is there a less charitable interpretation out there?
    Ms. McLean. That is what I would like to take from it. Yes, 
I would.
    Ms. Lofgren. I think the witness is trying to not become 
involved in that.
    Mr. Davis of Alabama. The point I want to make--obviously, 
we hope that States are doing their jobs, but I think this is 
not contested. During this same period of time when, in most 
States that aren't North Carolina and Michigan, there has been 
a big drop-off in the number of Section 8-eligible people who 
have been registered to vote. There continue to be these 
lagging gaps between minorities that are eligible to vote and 
those who are actually voting.
    So it would seem to me if the proposition was correct, that 
these States don't have good numbers because they did such a 
wonderful job in the 1990s and got everybody registered, that 
frankly we would see those gaps close. Wouldn't you agree with 
that, Ms. McLean?
    Ms. McLean. I would agree with that.
    Mr. Davis of Alabama. And, Ms. Truss, I would assume you 
would agree with that piece of logic, too?
    Ms. Truss. Yes.
    Mr. Davis of Alabama. Thank you, Madam Chairwoman.
    Ms. Lofgren. Thank you.
    The Chair recognizes the gentlelady from California, Mrs. 
Davis.
    Mrs. Davis of California. Thank you. Thank you both for 
being here.
    Ms. McLean, I am just wondering--I appreciate and greatly 
applaud the efforts that you are bringing forward. If I am not 
mistaken, one of the key ingredients is the training of staff.
    Ms. McLean. That is correct. We found that staff needs to 
know how to do this and why they are doing this.
    Mrs. Davis of California. Will there be follow-up so that 
you are able to go back and really look at those numbers and 
figure out, okay, what are some of the things that we would 
expect to have happen and what would be the surprises? I mean, 
what is going to be different 2 years from now if you were 
going to testify on this and you wanted to tell us the results?
    What do you think from the plan, from what you have put in 
place and your analysis as you move forward--and I am hoping 
that that will be there--that you would be able to suggest?
    Because part of the difficulty, too, is that as we have all 
said, when survival is your highest priority, sometimes other 
things are not as important and yet critical in terms of 
understanding the needs of any electorate.
    And so how will we evaluate, you know, your primed efforts 
here?
    Ms. McLean. Well, I think one of the things that we have 
learned from this process is that we had assumed that the 
agency voter registration was on autopilot and that we assumed 
that these agencies were doing the jobs that they were expected 
to do. We have learned from that that we need to continuously 
stay focused on the activities of these section 7 agencies. 
Requiring them to report, comparing the reports to other 
reports that we receive from a different agency will enable us 
to identify if there is a potential problem out there that 
someone has dropped the ball, so to speak.
    Mrs. Davis of California. And what would you expect to be 
the greatest reason for dropping the ball?
    Ms. McLean. I would think probably lack of realization that 
this is a Federal mandate. It is not just another State agency 
that is asking you to do something else in your job.
    Mrs. Davis of California. Do you, and Ms. Truss as well, do 
you have a sense of why--you know, why maybe it is difficult 
for people to register? Why don't people register?
    We may take it for granted that people want to register. 
What do you all think?
    Ms. Truss. I think that for those of us who have been 
voting since we were of the age that we could vote, we 
understand that it is a powerful experience, and we understand 
how engaging it is and how it makes us a part of our local 
community, part of our State, the decisions that are made on 
our behalf and on a national level.
    And I am not sure that, like you said, when you are just 
kind of subsisting and you are really just going about your day 
trying to get from A to B that that really becomes a part of 
your experience. So I think what is powerful is to get engaged 
and try to have the experience and then to feel that feeling 
that those of us who have done it get from it.
    So I think it is just a matter of maybe it has just not 
been part of their experience. So initiatives like the one in 
Michigan and the one in North Carolina hopefully will engage a 
more diverse group of people who haven't had that experience 
and that will sort of fuel the initiative to continue.
    Mrs. Davis of California. Anything else we should be doing?
    Ms. Truss. I agree with Ms. McLean that we need to continue 
to train. I think that you really have to keep this kind of 
initiative going, and it can't be just something you start at 
one point and you just assume that it is going to continue on. 
You have to revisit. You have to look at the data, go back, fix 
what is broken or make things better, take best practices from 
one place and share them with others.
    I think it is just something you have to stay focused on, 
and I know that that is really important to our director.
    Mrs. Davis of California. Thank you.
    Thank you, Madam Chair.
    Ms. Lofgren. Thank you very, very much. You are both role 
models for other States. And we certainly do appreciate your 
being here. And please take back to your States our admiration 
for your efforts; we hope to publicize them as models for 
others.
    Let's now call the second panel forward, if we could. Let 
me introduce the witnesses as they are sitting down.
    Lisa Danetz is Senior Counsel at Demos and has spent the 
last 5 years as a voting rights and campaign finance lawyer 
with their affiliate, the National Voting Rights Institute. Her 
past and current work includes litigation and negotiation with 
States regarding implementation of the National Voter 
Registration Act, constitutional litigation to promote and 
defend campaign finance reforms, legislative drafting and FEC 
enforcement work.
    Ms. Danetz received her Bachelor's degree from Yale 
University and her Juris Doctorate, cum laude, from New York 
University School of Law.
    Michael Slater is the Deputy Director of Project Vote where 
he focuses primarily on ensuring the voting rights of low-
income and minority Americans. During his tenure with Project 
Vote, Mr. Slater has helped lead a successful effort to 
overturn laws in seven States restricting voter registration, 
including Project Vote v. Blackwell, as well as contributed to 
the passage of election legislation in half a dozen States.
    Mr. Slater directs Project Vote's NVRA implementation 
project, which seeks to ensure that States are in compliance 
with the public agency registration requirements of the 
National Voter Registration Act.
    And finally we have David B. Muhlhausen, who is a Senior 
Policy Analyst at the Heritage Foundation's Center For Data 
Analysis. Dr. Muhlhausen specializes in criminal justice 
policy, as well as evaluating the performance of government 
programs.
    Prior to his work with the Heritage Foundation, Dr. 
Muhlhausen worked on the Senate Judiciary Committee as well as 
a manager at a juvenile correctional facility in Baltimore.
    Dr. Muhlhausen received his Bachelor's degree from 
Frostburg State University and his Doctorate degree in public 
policy from the University of Maryland, Baltimore County.

   STATEMENTS OF LISA DANETZ, SENIOR COUNSEL, DEMOS; MICHAEL 
SLATER, DEPUTY DIRECTOR, PROJECT VOTE; AND DAVID B. MUHLHAUSEN, 
           SENIOR POLICY ANALYST, HERITAGE FOUNDATION

    Ms. Lofgren. We welcome the three of you and you heard the 
advice to the prior witnesses about the light system. So we 
would note that your full written statements are part of the 
record of this hearing and invite you to give oral testimony of 
about 5 minutes.
    And if we could begin with you, Ms. Danetz.

                    STATEMENT OF LISA DANETZ

    Ms. Danetz. Thank you, Chairwoman Lofgren, Ranking Member 
McCarthy and other members of the Subcommittee on Elections of 
the House Administration Committee for inviting me to testify 
today.
    Ms. Lofgren. Is the microphone on? Why don't you pull it a 
little bit closer?
    Ms. Danetz. Is that better? I have to be honest; nobody has 
ever told me that I didn't project well.
    In my time at Demos, I have worked extensively on efforts 
to ensure better compliance with and implementation of the 
NVRA's requirements, especially with regard to public 
assistance agency-based registration. I have advised State 
elections and human services officials about compliance, 
brought litigation to ensure compliance and spoken and written 
about the issue.
    In particular, I have had the opportunity, as you just 
heard, to work with the States of Michigan and North Carolina 
on their efforts; and I wish to formally commend them to you 
for their voluntarily undertaking the implementation of best 
practices with respect to agency-based voter registration.
    In North Carolina, the improved procedures led to over 
34,400 voters registered at the State's public assistance 
agencies in the first year after the reimplementation process 
started. That is an almost six-fold increase in the average 
number of voters being registered each month at North 
Carolina's public assistance agencies.
    The work of Demos and our partners during the past several 
years has demonstrated, unfortunately, that not all States are 
like North Carolina and Michigan and that the early promise of 
the NVRA has not been sustained with respect to voter 
registration at public assistance offices.
    Chairwoman Lofgren has already indicated the 79 percent 
decline since implementation of the law. And for whatever 
reason, many States are no longer offering voter registration 
opportunities at their public assistance offices.
    I think it is important to look past the numbers, however, 
because it is not just numbers that suggest that there is 
noncompliance. When we go into the States to see what is 
happening firsthand, we see local offices that do not offer the 
opportunity to register to vote, local offices that do not even 
have voter registration applications at the office, staff who 
are entirely unaware of their obligations, voter registration 
services offered in the office but not for services offered by 
the Internet, mail, over-the-telephone ways in which many 
services are offered now; and also local offices that don't use 
the statutorily required declination form, which is specified 
by the statute.
    Every State, I think, should be able to accomplish results 
similar to that attained in North Carolina by implementing 
certain practices that largely ensure, one, that local workers 
know their responsibilities; and, two, that they are held 
accountable for performing them.
    Such practices include the formation of an NVRA improvement 
team with a designated Chair; the designation of local NVRA 
coordinators, as Ms. Truss already discussed; sending of 
instructions to agency and office personnel; regular training 
and performance reviews of staff; as well as regular reporting 
and monitoring of performance data.
    The statute specifically tasks the Justice Department with 
enforcement of the NVRA. And we know from experience that such 
enforcement can be quite effective. In 2002, DOJ brought a 
lawsuit against Tennessee for that State's failure to provide 
voter registration services at public assistance agencies. As a 
result of the consent decree entered to settle the litigation, 
Tennessee's public assistance agencies' numbers of voter 
registration applications skyrocketed. In the 2-year period 
preceding the last Presidential election, public assistance 
agencies received almost 174,000 voter registration 
applications. In the most recent period, they received almost 
121,000 voter registration applications. That was one in five 
of all public assistance registrations in the Nation that came 
from Tennessee.
    Given the success of litigation in increasing voter 
registration applications at public assistance agencies, it is 
remarkable that the Justice Department has been largely absent 
since that 2002 case against Tennessee.
    In the past several months, there have been some more 
encouraging signs of Justice Department interest. And we are 
hopeful that the recent steps indicate a renewed willingness on 
the part of the Justice Department to resume more vigorous 
enforcement of section 7.
    I will just end by saying that with the examples of North 
Carolina and Michigan, as well as a renewed commitment to full 
enforcement of the NVRA, I believe we can realize the 
congressional intent and help hundreds of thousands of 
additional voters participate in the political process.
    Thank you.
    Ms. Lofgren. Thank you very much.
    [The statement of Ms. Danetz follows:]
    [GRAPHIC] [TIFF OMITTED] 42796.098
    
    [GRAPHIC] [TIFF OMITTED] 42796.099
    
    [GRAPHIC] [TIFF OMITTED] 42796.100
    
    [GRAPHIC] [TIFF OMITTED] 42796.101
    
    [GRAPHIC] [TIFF OMITTED] 42796.102
    
    [GRAPHIC] [TIFF OMITTED] 42796.103
    
    [GRAPHIC] [TIFF OMITTED] 42796.104
    
    [GRAPHIC] [TIFF OMITTED] 42796.105
    
    [GRAPHIC] [TIFF OMITTED] 42796.106
    
    [GRAPHIC] [TIFF OMITTED] 42796.107
    
    [GRAPHIC] [TIFF OMITTED] 42796.108
    
    Ms. Lofgren. We will turn now to Mr. Slater.

                  STATEMENT OF MICHAEL SLATER

    Mr. Slater. Good afternoon, Chairwoman Lofgren, Ranking 
Member McCarthy and members of the Subcommittee on Elections. 
My name is Michael Slater. I am Deputy Director of Project 
Vote. Project Vote is a national nonprofit, nonpartisan 
organization that promotes registration and voting to Americans 
who are historically underrepresented in the electorate.
    It is an honor to be here today to present testimony on the 
National Voter Registration Act, a law meant to ensure that all 
Americans have equal access to voter registration 
opportunities.
    As the subcommittee knows, Congress passed the NVRA with 
the intent to increase registration by removing State barriers 
to voter registration opportunities. The act also requires 
States to offer voter registration at motor vehicle 
departments, section 5, and at public assistance agencies, 
section 7.
    Congress included section 7 in the NVRA because it has the 
potential to offset the longstanding underrepresentation of 
low-income citizens in the electorate. The House committee 
reporting on the NVRA explained that the inclusion of section 7 
was to ensure that the poor and persons with disabilities who 
did not have driver's licenses would not be excluded from those 
for whom registration would be convenient and readily 
available.
    Section 7's promise of a more representative electorate is 
as important today as it was in 1993. Of all adult citizens 
from households with annual economics below $25,000 in 2006, 
approximately 40 percent were unregistered, compared to only 20 
percent from households with incomes greater than $100,000. The 
registration rate for non-Hispanic whites was 71 percent in 
2006, but only 61 percent for non-Hispanic blacks, 54 percent 
for Latinos and just 49 percent for Asian Americans. Nonwhites 
are less registered in large part because they are 
disproportionately low income.
    Just as the promise of NVRA is relevant today, so too is 
its potential. Fully 34 percent, or 64 million, voting-eligible 
Americans were not registered to vote in 2006.
    A study by the Washington secretary of state shows that 
section 7 can play an important role in reaching them. In 2007, 
election officials in Washington compared their list of 
registered voters to the list of adult citizens who received 
public assistance. Their comparison found that of the 1.2 
million adult citizens who used public assistance programs in 
2006, more than 780,000 were not registered to vote. Even if 
the State's data-matching efforts missed some registered 
voters, Washington's report indicates that a significant 
proportion of the State's 1.4 million unregistered citizens can 
be reached through public assistance agencies.
    Unfortunately, as my colleague, Ms. Danetz, has testified, 
there is substantial evidence that the 79 percent decline since 
1975 in the number of voter registration applications from 
section 7 agencies is the result of State's noncompliance.
    In the past 4 years, we have talked with State human 
service directors who have no knowledge of the NVRA, with 
election officials who have acknowledged that their States are 
no longer in compliance and with agency staff who stopped 
offering voter registration years ago.
    In 2006, Project Vote began to assess the availability of 
voter registration at agency offices and conduct client 
interviews. Out of 56 public assistance offices in six States, 
only 21, less than half, could produce a voter registration 
application upon request.
    The evidence collected by Project Vote surveyors is 
telling. In Denver, one agency worker told us their office had 
been out of voter registration forms for 7 or 8 years. In St. 
Louis, an agency worker told our surveyor their office did not 
offer voter registration and suggested that she look voter 
registration up in the phone book; while a worker at another 
St. Louis office directed us to contact the Urban League. In 
Seattle, an agency worker simply said they used to offer voter 
registration but no longer did.
    Surveys of clients confirm the problem. Of the 386 clients 
we surveyed whose transactions were covered by the NVRA, only 
73, less than 20 percent, had been provided with an opportunity 
to register.
    Noncompliance by States has been facilitated by the failure 
of the Justice Department to enforce the provisions of section 
7. Since 2000, the Justice Department has brought only one 
lawsuit to enforce its public agency provisions, although 
recent conversations indicate there might be some change in 
that.
    In short, States are denying low-income Americans an 
opportunity to register to vote that Congress afforded them in 
1995. The results have been, in part, an electorate that 
continues to skew towards the affluent and a democracy 
impoverished by it.
    Fortunately, there is good news. A few simple steps can 
bring States into compliance and generate significant numbers 
of registration from eligible Americans. Ms. Danetz has already 
identified a number of those, and I would simply like to share 
some results from a few States:
    In Iowa, where executive leadership, a simple reporting 
system and a commitment by staff resulted in the number of 
applications from public assistance agencies more than doubling 
in the election cycle following reforms.
    In September 2005, Oregon implemented a set of reforms 
focusing on identifying and training NVRA coordinators in each 
office. The result was a 65 percent increase in registrations 
from counties and programs we examined.
    In January 2008, the Election Division and the Department 
of Human Services again collaborated to train another cohort of 
499 NVRA coordinators.
    And New Mexico has started the first but still incomplete 
steps to reinvigorate agency registration. Their results 
yielded 672 voter registration applications in February of this 
year compared to just 102 registrations from 2007.
    And let me conclude by saying the research shows that when 
States take section 7 seriously, individuals respond by 
registering to vote. Our job today is to get all States to take 
section 7 seriously so all Americans have an equal opportunity 
to register to vote in 2008. Thank you.
    Ms. Lofgren. Thank you very much.
    [The statement of Mr. Slater follows:]
    [GRAPHIC] [TIFF OMITTED] 42796.109
    
    [GRAPHIC] [TIFF OMITTED] 42796.110
    
    [GRAPHIC] [TIFF OMITTED] 42796.111
    
    [GRAPHIC] [TIFF OMITTED] 42796.112
    
    [GRAPHIC] [TIFF OMITTED] 42796.113
    
    [GRAPHIC] [TIFF OMITTED] 42796.114
    
    [GRAPHIC] [TIFF OMITTED] 42796.115
    
    [GRAPHIC] [TIFF OMITTED] 42796.116
    
    [GRAPHIC] [TIFF OMITTED] 42796.117
    
    Ms. Lofgren. And finally we will turn to Dr. Muhlhausen.

              STATEMENT OF DR. DAVID B. MUHLHAUSEN

    Mr. Muhlhausen. My name is David Muhlhausen. I am a Senior 
Policy Analyst at the Heritage Foundation. I thank Chairwoman 
Lofgren, Ranking Member McCarthy and the rest of the 
subcommittee for the opportunity to testify today.
    My testimony presents preliminary findings from a 
forthcoming report on the relationship between welfare 
caseloads and voter registrations at State public assistance 
offices. The views I express and this testimony are my own and 
should not be construed as representing any official position 
of the Heritage Foundation.
    The National Voter Registration Act of 1993 required States 
to allow eligible persons to register to vote at various 
government agencies, including public assistance offices. Since 
the initial reporting period of 1995 to 1996, the number of 
persons registering to vote at public assistance offices has 
declined. This trend has led some to speculate that the decline 
is the result of States failing to provide individuals the 
opportunity to register to vote at these offices. Another 
possible explanation is that welfare reform caused the decline 
in registrations.
    The analysis presented in my written testimony tests the 
hypothesis that the Personal Responsibility and Work 
Opportunity Reconciliation Act of 1996 contributed to the 
decline in public assistance voter registrations. Welfare 
reform led to a substantial decrease in welfare caseloads, 
which in turn may have led to fewer voters registering at 
public assistance offices.
    Chart one of my written testimony plots the trends in the 
average number of AFDC/TANF participants and the average number 
of voter registrations at public assistance offices in the 
States from 1995 to 2006. As illustrated in the chart, the 
decline in registration closely follows the decline in AFDC/
TANF participation.
    While the association between welfare caseloads and voter 
registration seems obvious, other factors may explain the 
relationship. To check for other explanations for the decline, 
my research analyzes a panel data set of 45 States and the 
District of Columbia over 12 years. My analysis controls for 
welfare participation rates, socioeconomic factors and 
political election cycles. Controlling for those factors, AFDC/
TANF participation has a statistically significant association 
with public assistance voter registrations. A 1 percent 
decrease in AFDC/TANF participation is associated with a half a 
percent decline in voter registrations.
    Other factors that appear to influence public assistance 
voter registrations are a State's minority population, 
Presidential and gubernatorial election years. Changes in food 
stamp participation; women, infant and children, WIC, 
participation; unemployment rates and income per capita do not 
appear to have any statistically measurable association with 
public assistance voter registrations. Based on the analysis of 
the data, declining AFDC/TANF caseloads from 1995 to 2006 made 
a substantial contribution to the decrease in public assistance 
voter registrations.
    Unlike previous research, my study is panel regression 
analysis to estimate the relationship between AFDC/TANF 
participation and other factors that influence public 
assistance registrations. Controlling for other factors, a 1 
percent decrease in AFDC/TANF participation is associated with 
a half a percent decrease in public assistance voter 
registrations.
    While research on this topic is new and in need of further 
analysis, Members of Congress should not easily dismiss the 
major role of welfare reform in declining public assistance 
voter registrations.
    I thank you.
    Ms. Lofgren. Thank you very much.
    [The statement of Dr. Muhlhausen follows:]
    [GRAPHIC] [TIFF OMITTED] 42796.118
    
    [GRAPHIC] [TIFF OMITTED] 42796.119
    
    [GRAPHIC] [TIFF OMITTED] 42796.120
    
    [GRAPHIC] [TIFF OMITTED] 42796.121
    
    [GRAPHIC] [TIFF OMITTED] 42796.122
    
    [GRAPHIC] [TIFF OMITTED] 42796.123
    
    [GRAPHIC] [TIFF OMITTED] 42796.124
    
    [GRAPHIC] [TIFF OMITTED] 42796.125
    
    Ms. Lofgren. Now we will come to our time for questions. I 
will begin. I appreciate the testimony of all of the witnesses, 
and certainly, Dr. Muhlhausen, I am--obviously, the number of 
people on assistance would have an impact, but it seems to me 
until we have registration forms and asking people, we would 
not really see that impact.
    So I guess--my question really would be, I guess, to Ms. 
Danetz. You have done these studies all over the country. Have 
you looked at California?
    Ms. Danetz. I have not specifically looked at California. 
Our reports address California, however. I believe Project Vote 
has been in California, however.
    Ms. Lofgren. Mr. Slater, have you been--I am looking at 
these figures that the Secretary of State sent over. And the 
State of California has about 38 million people. It is a lot of 
people.
    In 2006, 51,713 were registered under section 7. In 2007, 
that dropped to 31,584. So far for 2008, it is 7,600. That 
strikes me as very low numbers for a State as large as 
California.
    In my own county in 2006, it is about 1,900,000 people in 
Santa Clara County. We have got 7,858 in 2006; only 2,886 in 
2007; and so far in 2008, just 65.
    And in Kern County, I will tell you--in 2006, there were 
89; 2007, it dropped to 14; and so far in 2008, it is zero.
    So are these numbers that would indicate a sufficient 
effort being made, or what can you tell us about California?
    Mr. Slater. I had an opportunity to talk with Secretary 
Bowen about that very issue about a month ago, and she shared 
our concerns that perhaps California was not in compliance, 
probably in two ways.
    One, they are probably not collecting data that they need 
to to report on their activities. I do find it hard to believe, 
for example, that LA County, regardless to what extent they are 
complying, is only helping 74 people in a 2-year period that 
has 30 percent of the State's population. So I assume there is 
a compliance issue, but I also believe that it is probably true 
that they are not offering voter registration as consistently 
as they ought to.
    I mean, California is registering about as many people as 
the State of Oregon, which is significantly smaller. If we take 
a look at Oregon, which I think is doing a good but not great 
job, we see that they are registering about eight or nine 
people per 100 individuals, adult citizens who are on food 
stamps. If California registered people at the same rate, they 
would have registered 183,000 people.
    So I think there is just a significant difference between 
the two States on implementation. So it is a concern for us, 
and we are trying to address that issue, but we do not have 
hard survey data like we do in other States.
    Ms. Lofgren. I am wondering, I think our Secretary of State 
does a fine job, I mean, but there has to be a coordination 
between the human service agencies and the Secretary of State. 
The human service agencies are run in each of the 58 counties, 
really, not by the State.
    How would you approach--you know, I guess, probably, 80 
percent of the population of California is in 10 counties. But 
what advice could you give me, as a Californian and chair of 
the Elections Subcommittee, for approaching that project if we 
wanted to take responsibility for our own State?
    Mr. Slater. Our experience and the experience of Demos is 
that, in each State where they have implemented real reform, it 
is because the executive branch and the Secretary of State's 
office have worked together closely to develop a plan and then 
to exercise some real political leadership in organizing the 
agency heads and agency staff to then implement that plan. I 
think that is what is needed in California. It is kind of a 
Cabinet-level executive team that really handles rolling out 
the reimplementation of NVRA.
    Ms. Lofgren. Now, you mentioned, Ms. Danetz, that the 
Justice Department did not seem terribly interested when you 
presented the evidence of section 7 noncompliance in the 2004-
2005 time frame.
    Could you quantify what impact this disinterest may have 
had on the rights of low-income Americans to register?
    Ms. Danetz. Sure. You can see from the results in Tennessee 
the impact that the Justice Department involvement has on a 
State's public assistance-based voter registration 
applications. In that State, before DOJ involvement, there 
were, I think, 49,000 or 50,000, and then that went up in the 
next presidential election cycle to almost 174,000.
    So, certainly, in a State-by-State way, any place that DOJ 
decides to get involved there is going to be a measurable 
improvement, and tens of thousands, if not hundreds of 
thousands, of additional people can be registered.
    Moreover, I think that when the Justice Department engages 
in enforcement litigation or compliance litigation, it sends a 
message to other States that this is something that is going to 
warrant attention.
    Ms. Lofgren. My time has expired, so I will turn now to Mr. 
McCarthy for his questions.
    Mr. McCarthy. Well, thank you, Madam Chair.
    First, Madam Chair, I have received written testimony from 
Brad King, Co-Director of the Indiana Election Division. I will 
just ask unanimous consent----
    Ms. Lofgren. Without objection, that will be entered into 
the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42796.126
    
    [GRAPHIC] [TIFF OMITTED] 42796.127
    
    [GRAPHIC] [TIFF OMITTED] 42796.128
    
    [GRAPHIC] [TIFF OMITTED] 42796.129
    
    [GRAPHIC] [TIFF OMITTED] 42796.130
    
    [GRAPHIC] [TIFF OMITTED] 42796.131
    
    [GRAPHIC] [TIFF OMITTED] 42796.132
    
    [GRAPHIC] [TIFF OMITTED] 42796.133
    
    [GRAPHIC] [TIFF OMITTED] 42796.134
    
    [GRAPHIC] [TIFF OMITTED] 42796.135
    
    [GRAPHIC] [TIFF OMITTED] 42796.136
    
    [GRAPHIC] [TIFF OMITTED] 42796.137
    
    [GRAPHIC] [TIFF OMITTED] 42796.138
    
    [GRAPHIC] [TIFF OMITTED] 42796.139
    
    [GRAPHIC] [TIFF OMITTED] 42796.140
    
    [GRAPHIC] [TIFF OMITTED] 42796.141
    
    [GRAPHIC] [TIFF OMITTED] 42796.142
    
    [GRAPHIC] [TIFF OMITTED] 42796.143
    
    [GRAPHIC] [TIFF OMITTED] 42796.144
    
    [GRAPHIC] [TIFF OMITTED] 42796.145
    
    [GRAPHIC] [TIFF OMITTED] 42796.146
    
    [GRAPHIC] [TIFF OMITTED] 42796.147
    
    [GRAPHIC] [TIFF OMITTED] 42796.148
    
    [GRAPHIC] [TIFF OMITTED] 42796.149
    
    [GRAPHIC] [TIFF OMITTED] 42796.150
    
    [GRAPHIC] [TIFF OMITTED] 42796.151
    
    [GRAPHIC] [TIFF OMITTED] 42796.152
    
    [GRAPHIC] [TIFF OMITTED] 42796.153
    
    [GRAPHIC] [TIFF OMITTED] 42796.154
    
    [GRAPHIC] [TIFF OMITTED] 42796.155
    
    [GRAPHIC] [TIFF OMITTED] 42796.156
    
    [GRAPHIC] [TIFF OMITTED] 42796.157
    
    [GRAPHIC] [TIFF OMITTED] 42796.158
    
    [GRAPHIC] [TIFF OMITTED] 42796.159
    
    [GRAPHIC] [TIFF OMITTED] 42796.160
    
    [GRAPHIC] [TIFF OMITTED] 42796.161
    
    [GRAPHIC] [TIFF OMITTED] 42796.162
    
    [GRAPHIC] [TIFF OMITTED] 42796.163
    
    Mr. McCarthy. Thank you so much.
    I appreciate all of the testimony today. I have found the 
hearing quite interesting.
    Dr. Muhlhausen, in reading your report and in looking at 
your graph how it directly coincides with the number of 
participants and with the number of registrations, you used a 
regression analysis. Is that what you said you utilized that 
was different?
    Mr. Muhlhausen. Yes. What I did was we took the data 
available for each State over a 12-year period, from 1995 to 
2006, and your dependent variable is the number of voter 
registrations per population times 100,000. So it is their 
rate, so States are comparable. You look and see how that 
variation changes among States, and you control for welfare 
participation in the sense of AFDC/TANF caseloads, WIC 
caseloads, food stamp caseloads, demographic characteristics of 
the State, income, unemployment, and political election cycles 
such as senatorial elections, gubernatorial elections, 
presidential elections and off-year elections.
    After we control for all of those issues, what we find is 
that the regression explains about 70 percent of the variation 
in caseloads among the States. One of the significant variables 
is AFDC/TANF caseloads, and it suggests that, as AFDC/TANF 
caseloads decrease, so do public assistance registrations.
    Mr. McCarthy. So, the reform they had within there, you saw 
caseloads go down?
    Mr. Muhlhausen. Yes.
    Mr. McCarthy. Okay.
    Mr. Slater, is that correct? In your research, did you use 
this regression analysis ever?
    Mr. Slater. No. What we looked at was data collected by the 
FDC and then the EAC. They track registrations from public 
assistance agencies. So the numbers that we are using show a 
decline, and our interest was in trying to establish why that 
decline occurred.
    So what we did is we went into the field, and we asked 
public assistance providers, we asked agency directors, we 
asked clients, ``Are you being offered a chance to register to 
vote?'', ``Do you know about this law?'', ``Are you providing 
these services?'' We found from our field experience that the 
answer is, no, they are not doing that.
    So, in comparison, I would say that the research from the 
field essentially trumps a statistical analysis.
    Mr. McCarthy. Even though earlier you said that California 
seems--there is probably a lot of data problem of not reporting 
it. Did you put that into your research, as well, or not?
    Mr. Slater. I am sorry, I do not understand.
    Mr. McCarthy. The question Chairwoman Lungren asked you----
    Ms. Lofgren. That is Lofgren, not Lungren.
    Mr. McCarthy. Sorry, I apologize--was about California on 
the reporting of the number. You said you talked to the 
Secretary of State, and you felt it probably wasn't all not 
doing the job but that it was probably the data coming in.
    So I am just asking you, regarding the data, did you 
correlate for that? Or what did you do about that? I assume, if 
California has a data problem, there are probably some others 
about not reporting. I know they have to do a lot of paperwork.
    Mr. Slater. Well, what I said about California is that the 
statistics lead us to believe that that is the case. Now our 
job is to follow-up on that and do some surveys and develop 
some additional hard evidence.
    Mr. McCarthy. Okay. You guys do voter registration as well, 
right? That is your main focus for low-income?
    Mr. Slater. Uh-huh.
    Mr. McCarthy. And you did over 1 million in the last 
presidential cycle?
    Mr. Slater. 1.1 million in 2004, that is correct.
    Mr. McCarthy. And your goal this time is how many?
    Mr. Slater. 1.2 million.
    Mr. McCarthy. And it is mainly focused on low-income, 
correct?
    Mr. Slater. Low-income and minority communities, that is 
correct.
    Mr. McCarthy. Does that correlate into any of the drop, as 
well? Do you think you are taking some people off the rolls as 
well from registering on the work you have done as well?
    Mr. Slater. Well, my preference, actually, would be for the 
State to do all of this. We would be happy to be out of the 
voter registration business if public agencies would do their 
job.
    Our belief is that the registration rates have not 
fundamentally changed. In part, that is because of mobility 
rates among low-income Americans. They move frequently enough 
that they need to constantly reregister. So there is kind of a 
ready pool of low-income Americans that need to register to 
vote.
    Mr. McCarthy. So low-incomes are very mobile?
    Mr. Slater. Yes. There is about a 25-percent mobility rate.
    Mr. McCarthy. Do you think there is any responsibility on 
an American citizen to register? I mean, do you think it is a 
right of everybody or is it a responsibility of an individual 
to register to vote?
    Mr. Slater. I certainly thing that people have a 
responsibility to pay attention to politics, and I think they 
have a right to vote.
    Mr. McCarthy. You made a comment that struck me kind of odd 
inside your statement, that people were not treated fairly. 
That always upsets me. I think people should be treated equal 
and fairly.
    Is there any other place that people are offered for voter 
registration, I mean, from other avenues, from middle-income 
and others?
    Mr. Slater. Right, the Department of Motor Vehicles. I 
think that is one of the points that we like to make, which is 
that we have a law that is working effectively for Department 
of Motor Vehicles, which services people who can afford a 
vehicle or who have access to one. The point about section 7 is 
that it is able to get at all of those other people.
    So to implement a law in one area that affects one group of 
people but to not then implement it in another area we think is 
just unfair, and we ought to solve that problem.
    Mr. McCarthy. So you think it is not the low-income who are 
being unfairly treated but that it is the others? Is that what 
your answer would be?
    Mr. Slater. No. I am saying that we believe the States are 
doing a pretty good job at the Department of Motor Vehicles. 
They are not doing a very good job at public assistance 
agencies, and that is where we have an inequality in access to 
voter registration opportunities.
    Mr. McCarthy. The DMV does a better job than all of the 
others?
    Mr. Slater. Much better. Somewhere between 40 to 50 percent 
of all applications in America originate from the Department of 
Motor Vehicles now.
    Mr. McCarthy. Have you done any studies in regard to DMVs, 
Mr. Muhlhausen?
    Mr. Muhlhausen. Actually, one of the things I am interested 
in is looking at whether or not there is a substitution effect. 
That is what I am going to try to address in my forthcoming 
report, because I think that the way people register to vote 
has likely changed. I remember I used to register to vote by 
going to the county office and filling out the paperwork. Now 
when I move and when I change my driver's license, I register 
there.
    So I think that the ways people register, especially with 
the advances in community mobilization efforts by certain 
groups, may actually substitute for the need to register to 
vote at public assistance offices. I think it is something that 
needs to be considered in thinking about this decline.
    Mr. McCarthy. When will your report be done?
    Mr. Muhlhausen. I cannot give you a hard date. I have to 
finish writing it and do some additional analysis and receive 
feedback. So it will be out this year, preferably sooner rather 
than later.
    Mr. McCarthy. Well, I know I went over my time, Chairwoman 
Lofgren. I apologize.
    Ms. Lofgren. That is all right.
    The gentleman's time has expired.
    I would note, without objection, we will make the Project 
Vote and Demos report part of our record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42796.164
    
    [GRAPHIC] [TIFF OMITTED] 42796.165
    
    [GRAPHIC] [TIFF OMITTED] 42796.166
    
    [GRAPHIC] [TIFF OMITTED] 42796.167
    
    [GRAPHIC] [TIFF OMITTED] 42796.168
    
    [GRAPHIC] [TIFF OMITTED] 42796.169
    
    [GRAPHIC] [TIFF OMITTED] 42796.170
    
    [GRAPHIC] [TIFF OMITTED] 42796.171
    
    [GRAPHIC] [TIFF OMITTED] 42796.172
    
    [GRAPHIC] [TIFF OMITTED] 42796.173
    
    [GRAPHIC] [TIFF OMITTED] 42796.174
    
    [GRAPHIC] [TIFF OMITTED] 42796.175
    
    [GRAPHIC] [TIFF OMITTED] 42796.176
    
    [GRAPHIC] [TIFF OMITTED] 42796.177
    
    [GRAPHIC] [TIFF OMITTED] 42796.178
    
    [GRAPHIC] [TIFF OMITTED] 42796.179
    
    [GRAPHIC] [TIFF OMITTED] 42796.180
    
    [GRAPHIC] [TIFF OMITTED] 42796.181
    
    [GRAPHIC] [TIFF OMITTED] 42796.182
    
    [GRAPHIC] [TIFF OMITTED] 42796.183
    
    [GRAPHIC] [TIFF OMITTED] 42796.184
    
    [GRAPHIC] [TIFF OMITTED] 42796.185
    
    [GRAPHIC] [TIFF OMITTED] 42796.186
    
    Ms. Lofgren. I also recognize Mr. Davis for his 5 minutes.
    Mr. Davis of Alabama. Thank you, Madam Chairwoman.
    Dr. Muhlhausen, I am reluctant to engage in too long a 
colloquy with you. A veteran Member of Congress told me one 
time, if you ever get in an argument with a statistician, if 
you ever catch him in an error, he will just say something 
incomprehensible, and nobody will understand.
    Mr. Muhlhausen. I will try my best not to do that.
    Mr. Davis of Alabama. Well, ignoring my own advice, let me 
try to work through a hypothesis here, and maybe you or someone 
else can tell me why I am wrong.
    You would agree with me that people who are working are 
more likely to register to vote than people who are unemployed, 
wouldn't you? As a statistical matter, would you expect that to 
be the case?
    Mr. Muhlhausen. Well, you would expect that, but it's not 
what I found in my research. I found that unemployment rates 
were unassociated with registering to vote at public assistance 
offices. People who are unemployed but still in the labor force 
may, in fact, register to vote at other places besides----
    Mr. Davis of Alabama. Well, I am not just focusing my 
narrow question on where people register or even on the narrow 
questions you identify in your report but just as a general 
proposition. If someone is working, it would seem to me that 
there would probably be a variety of statistical evidence 
showing that they are more likely to be registered to vote than 
someone who is unemployed.
    Are you telling me that you disagree with that?
    Mr. Muhlhausen. No, I do not.
    Mr. Davis of Alabama. Okay. Well, then----
    Mr. Muhlhausen. That is not the hypothesis.
    Mr. Davis of Alabama. But you would not challenge that?
    Mr. Muhlhausen. No, I would not. I think that is a 
reasonable expectation.
    Mr. Davis of Alabama. Okay. Another reasonable expectation: 
People who are not eligible for public assistance, meaning they 
make too much money for it, are probably more likely to 
register to vote than people who are eligible for public 
assistance.
    Does that sound like a reasonable proposition to you?
    Mr. Muhlhausen. I think that is borne out just by people 
with higher incomes are more likely to vote.
    Mr. Davis of Alabama. Okay. So it would seem that, if one 
wanted to really push your hypothesis, the best thing to do--
and perhaps Ms. Danetz or Mr. Slater could weigh in on this--it 
would seem to me the best way to test your hypothesis would be 
to look at people who have left TANF because their income 
levels have gone up or people who have left TANF because they 
are employed to see if you see a rise in the voting population 
among those groups.
    Have you done any of that analysis?
    Mr. Muhlhausen. I am not aware of any data available that 
could be used for that, though I think that is a worthy 
research topic.
    Mr. Davis of Alabama. Well, let me tell you why that is 
significant for us policymakers and not just a worthy research 
topic. We have a dispute here. We have Ms. Danetz and Mr. 
Slater who are saying the reason that the voter registration 
levels at these public assistance agencies has fallen down is 
because of institutional resistance, given agencies not doing 
enough. You are telling us that maybe we shouldn't jump to that 
conclusion, and you are telling us that it may simply be that, 
if fewer people are eligible for the public assistance rolls, 
fewer of them can take advantage of voter registration 
activities.
    So I guess, if I can really sum it up in a nutshell, I have 
heard welfare reform blamed for a lot of things; it would seem 
that, today, we are hearing it blamed for less people getting 
registered to vote.
    Now, if that is the case, it would seem to me that we need 
a lot more statistical rigor than, frankly, what we are 
hearing. I am not necessarily faulting you as a person, but 
there is something about your methodology that seems to me, 
frankly, flawed.
    Ms. Danetz, do you follow my point?
    Ms. Danetz. I am not a statistician, but I believe so.
    I would simply say that, in the same time that voter 
registration has declined at public assistance agencies, TANF 
may have gone down but other public assistance programs' 
caseloads and, more specifically, applications, 
redeterminations and changes of address, which is the relevant 
point at which the opportunity to register to vote must be 
offered, have increased.
    So my understanding--I was only able to glance briefly at 
Dr. Muhlhausen's testimony. My understanding is that there are 
some methodology issues there.
    Mr. Davis of Alabama. Well, the point I would make is it 
just seems, Dr. Muhlhausen, the flaw in what you do is that it 
is descriptive, but for you to be prescriptive, for you to give 
us something that we can use as policymakers, you would need to 
measure people who have left the rolls. If the situation is 
that these people are registering to vote but that they are 
registering to vote on their own as they move to a higher 
strata in society, I do not know that we would be as troubled 
by that, frankly. I do not think we care how people get 
registered, as long as they get registered.
    I think the concern that we would have, especially on this 
side of the aisle, would be if for whatever reason people are 
not getting registered through public assistance and they are 
still not getting registered even as they move up the economic 
strata. It would seem that that is the point worthy of being 
tested.
    Mr. Slater, you are wanting to jump in.
    Mr. Slater. No, I would agree with that. To add to what Ms. 
Danetz pointed out, I think what we are missing from Mr. 
Muhlhausen's model, food stamps, the largest program.
    Mr. Muhlhausen. That is not true. My model controls for 
food stamps and for WIC.
    Mr. Slater. Well, I stand corrected then.
    Also, it looks at registrations. It does not look at all of 
the covered transactions, which I think is probably the 
appropriate point to look at. We need to know how many people 
are applying, how many people are recertifying and how many 
people changed their addresses in order to understand the total 
volume of transactions and the relationships.
    Mr. Davis of Alabama. Well, I would just end, Madam 
Chairwoman, by saying this much. I would go back to what I said 
to the previous panel. The gap between people eligible to vote 
and those who are registered in low-income communities and 
minority communities appears to be as acute today as it was 10 
or 15 years ago. I doubt anyone would dispute that. In fact, it 
may have worsened in many States.
    So it seems to at least one person in this room who is not 
a statistician that the larger public policy problem is that we 
have targeted one way to get more people registered; that way 
no longer seems to be yielding the results that we want. And I 
think that that is the broader problem.
    Ms. Lofgren. The gentleman's time has expired. I do want to 
let Dr. Muhlhausen respond just briefly before we adjourn.
    Mr. Muhlhausen. Sure.
    Congressman Davis, I think your questions were very 
thoughtful, but I would like to add that the methodology that I 
used was not descriptive. The method I used by the organization 
and by my colleagues here was descriptive, and it does not 
control for factors that influence changes in voter 
registrations, which my methodology uses. It is commonly 
accepted. It is called a regression analysis. It looks at the 
changes in various variables and how it influences others.
    As far as I know, mine is the first study to actually be 
sophisticated enough to draw inferential conclusions about the 
relationship between registrations and welfare and other 
factors that are going on in the States.
    Ms. Lofgren. Thank you very much to all of the witnesses 
for your--oh, Mr. Ehlers has just walked in.
    I would like to recognize Mr. Ehlers, if you want to engage 
in questions. I do not know if you have been listening to the 
hearing on C-SPAN or the Web. You are not required to ask a 
question.
    Mr. Ehlers. First of all, my apologies for being late. I 
was in a very distressing meeting, learning all the weaknesses 
of our security system for airplanes. But I will not get into 
that now. Let me just say the best thing to do is just walk. 
[Laughter.]
    Ms. Lofgren. It is a long walk home from here.
    Mr. Ehlers. I know.
    Thank you for having the hearing. I think it is a very 
worthwhile issue and something that has to be addressed.
    As you know from my concerns before, my chief concern was 
trying to make it as fraud-proof as possible, not so much out 
of fear that individuals would try to game the system but that 
this may lend itself to various operatives to develop ways to 
use it for fraudulent purposes. And I think, whatever we do in 
this, we have to make sure to keep in mind the potentialities 
for fraud by various groups.
    With that, I will yield back. Thank you.
    Ms. Lofgren. Thank you, Congressman Ehlers.
    At this point, we will thank all of the witnesses for their 
testimony.
    Note that the record will be open for 5 days. If members 
have additional questions that they would like to submit to 
you, we will forward them to you. If that occurs, we would ask 
that you try and respond as promptly as possible so we can get 
the responses as part of the hearing record.
    I do believe that this is an important topic. There has 
been a decline in registration rates among low-income 
individuals. Clearly, our North Carolina and Michigan witnesses 
have told us it is possible to do better, and I think we will 
be exploring ways to make that happen.
    One of the things that people do not realize is that our 
witnesses are volunteers. They are here to help this committee 
do a better job and to help the Congress move the country 
forward. So we do appreciate your willingness to help in that 
way.
    With that, this hearing is adjourned.
    [Whereupon, at 3:27 p.m., the subcommittee was adjourned.]

</pre></body></html>
